UNITED STATES SUPREME COURT

SHERMAN JOHNSON, JR.,

)
)
Petitioner,
)
)
vs.
)
)
UNITED STATES OF AMERICA,
)
)
Respondent.
)
)
)
_________________________________ )

Docket No. __________________
United States Court of Appeal Case No.
18-2929
United States District Court No. 8:16CR-00241-RFR-1

PETITION FOR WRIT OF CERTIORARI
CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Michael S. Evans, Esq.
California State Bar No. 146748
714 W. Olympic Boulevard
Suite 915
Los Angeles, California 90015
(310) 545-8192
criminaldf@aol.com
Attorney for Petitioner
SHERMAN JOHNSON, JR.

QUESTION PRESENTED FOR REVIEW
Whether the District Court and United States Court of Appeals for the Eighth
Circuit considered the full context of the other evidence of discrimination by the
prosecutor during voir dire to determine whether the factually incorrect statements
by the prosecutor for excusing prospective Juror No. 7, an African American
female, were proof of the Government’s discriminatory intent in striking this juror
and a violation of the Petitioner’s right to Equal Protection under the Fifth
Amendment as required by this Court’s decisions in Flowers v. Mississippi, 508
U.S. ---, 139 S.Ct. 2228 (2019), Foster v. Chatman, 578 U.S. ---, 136 S.Ct. 1737,
195 L.Ed.2d 1, 12-13, 17 (2016) and Miller-El v. Dretke, 545 U.S. 231 (2005)?

1

PARTIES TO THIS PROCEEDING
The Petitioner is Sherman Johnson, Jr.
The Respondent is the United States of America.
No corporate disclosure statement is not required as Petitioner is not a
nongovernmental corporation.
COURT PROCEEDINGS RELATED TO THIS CASE
On April 2, 2020, The United States Court of Appeals for the Eighth Circuit
in United States v. Sherman Johnson, Jr., Case No. 18-2929, affirmed the
Petitioner’s conviction. A copy of the Eighth Circuit’s opinion is included in the
Appendix filed along with this Petition.

On June 5, 2020, the United States Court

of Appeals for the Eighth Circuit denied the petition for rehearing en banc and
petition for rehearing by the panel.

2

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
COURT PROCEEDINGS RELATED TO THE CASE . . . . . . . . . . . . . . . . . . 2
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
UNITED STATES CONSTITUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
UNITED STATES STATUTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
MISCELLANEOUS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CITATIONS TO THE OFFICIAL REPORTS OF OPINIONS . . . . . . . . . . . 6
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
CONSTITUTIONAL PROVISIONS AT ISSUE . . . . . . . . . . . . . . . . . . . . . . . . 7
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
ARGUMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
THIS COURT SHOULD GRANT THE PETITION FOR WRIT OF
CERTIORARI BECAUSE THE PUBLISHED OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
CONFLICTS WITH THIS COURT’S DECISIONS IN FLOWERS v.
MISSISSIPPI, FOSTER v. CHATMAN AND MILLER-EL v. DRETKE IN
THAT THE EIGHTH CIRCUIT AFFIRMED THE DISTRICT COURT’S
FINDING THAT THE PROSECUTION’S PROFERRED FACTUALLY
INCORRECT STATEMENTS FOR STRIKING A BLACK JUROR DID
3

NOT SHOW RACIAL DISCRIMINATION WITHOUT CONSIDERING
THE OTHER EVIDENCE OF DISCRIMINATION BY THE
PROSECUTION DURING VOIR DIRE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CERTIFICATE OF COMPLIANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
CERTIFICATE OF FILING AND SERVICE . . . . . . . . . . . . . . . . . . . . . . . 22

4

TABLE OF AUTHORITIES
CASES
Batson v. Kentucky, 476 U.S. 79 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Flowers v. Mississippi, 508 U.S. ---, 139 S.Ct. 2228 (2019) . . . . . . . . . . . . . . 1, 12
Foster v. Chatman, 578 U.S. ---, 136 S.Ct. 1737, 195 L.Ed.2d 1 (2016) . . . . . 1, 12
Miller-El v. Dretke 545 U.S. 231 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1, 12
Snyder v. Louisiana 552 U.S. 472 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
United States v. Johnson, 954 F. 3d 1106 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 6
UNITED STATES CONSTITUTION
United States Constitution, Amendment V . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 14
UNITED STATES STATUTES
21 U.S.C. § 841 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
21 U.S.C. § 846 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
MISCELLANEOUS
Rules of the Supreme Court of the United States, Rule 33.1 . . . . . . . . . . . . . . . . 21

5

CITATIONS TO THE OFFICIAL REPORTS OF OPINIONS
This decision of the United States Court of Appeals for the Eighth Circuit is
reported at 954 F. 3d 1106 (8th Cir. 2020).

6

STATEMENT OF JURISDICTION
This Court has jurisdiction over this matter pursuant to 28 U.S.C. § 1254.
CONSTITUTIONAL PROVISIONS AT ISSUE
“No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in the
time of War or public danger; nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use
without just compensation.” United States Constitution, Amendment V.
STATEMENT OF THE CASE
On March 22, 2017, Respondent United States of America filed a two count
superseding indictment charging Petitioner Sherman Johnson, Jr., an African
American male, and co-defendant Sarkis Labachyan in Count One with knowingly
and intentionally distributing 5 kilograms or more of cocaine on or about June 21,
2016 in violation of 21 U.S.C. §§ 841(a)(1) and (b)(1) and in Count Two that on or
about April 14, 2016 and continuing to on or about June 21, 2016, Petitioner and
Labachyan knowingly and intentionally conspired together and with other persons
7

to distribute and possess with intent to distribute 5 kilograms or more of a mixture
or substance containing a detectable amount of cocaine in violation of 21 U.S.C.
§§ 841(a)(1) and (b)(1), and 846.

(Appendix at 2).

During jury selection, the prosecutor exercised three peremptory challenges
which resulted in all of the minorities, two African American jurors and one Latino
juror, being removed from the jury panel,. Petitioner’s counsel made a Batson
motion. (Appendix at 115).
The District Court found that Petitioner made a prima facia case for a Batson
violation requiring the prosecutor to provide race neutral reasons for striking the
minorities from the jury. Regarding prospective Juror No. 7, an African
American female, he initially stated: “actually I flagged [her] before I even knew
who she was.” (Appendix at 118). After making this statement, the prosecutor
relied on two factually incorrect statements to justify striking Juror No. 7.
First, the prosecutor proffered that he struck Juror No. 7 because she only
attained a GED or high school education. (Appendix at 118). Yet, the juror
questionnaire that she filled out indicated that Juror No. 7 in fact finished college.
(Appendix at 120).
Second, the prosecutor proffered that he struck Juror No. 7 because she did
not provide any information on her juror questionnaire. After making this
8

statement, the prosecutor admitted he used responses from her questionnaire as the
basis for a number of his proffered reasons to strike her from the jury.

(Appendix

at 119). Her questionnaire showed that Juror No. 7 filled out her jury
questionnaire completely. (Appendix at 8).
The prosecution proffered six additional reasons why he removed Juror No.
7. He initially indicated that he struck Juror No. 7 because she was young.
(Appendix at 119). Yet, four other white jurors were also young and in the same
age group as Juror No. 7, but were allowed to remain on the jury. (Appendix at
40, 41, 48 and 53).
The prosecutor then proffered that Juror No. 7 was struck because she was a
single parent. (Appendix at 119). Two white jurors who served on the jury
were both single parents. (Appendix at 34, 56).
The prosecutor also indicated he removed Juror No. 7 because she rented
and lived there for only one month.

(Appendix at 119). Yet, a white juror who

served on this jury also rented his residence and lived there for only six months
prior to his jury service. Two other white jurors who served on the panel also
rented and did not own the places they lived in.

(Appendix at 34, 55, 56).

The prosecutor then proffered that he struck Juror No. 7 because she had an
18 month child. (Appendix at 119). Yet, one white juror had a child the exact
9

same age and was allowed to serve on the panel.

(Appendix at 40). Two other

white jurors who served on the jury had children younger than Juror No. 7.
(Appendix at 48, 53).
The prosecutor added that he struck Juror No. 7 because she did not
volunteer any answers to the questions posed to whole panel by the Court and
counsel during voir dire. (Appendix at 119). Yet, nine of the white jurors or
three fourths of the jury panel did not volunteer any answers to questions posed to
whole panel and served on the jury.

(Appendix at 15-126).

The prosecutor then stated that Juror No. 7 indicated on her questionnaire
that her father was killed and did not respond to any questions posed to the panel
regarding this incident. The prosecutor was worried that she may hold a grudge
because her father was murdered. (Appendix at 119).
Juror No. 17, a white juror, was the victim of a sexual assault. The
perpetrator of the sexual assault in his case was never charged because the statute
of limitations had expired.

This white juror did not respond to the District

Court’s inquiry as to whether anyone had been involved in any court in a criminal
matter and yet he was allowed to serve on the jury.
///
///
10

(Appendix at 12).

The District Court denied Appellant’s Batson motion finding the prosecutor
provided race neutral reasons for striking Juror No. 7. (Appendix at 121). The
jury found the Appellant and Labachyan guilty of both counts. (Appendix at 3).
ARGUMENT
A. THIS COURT SHOULD GRANT THE PETITION FOR WRIT OF
CERTIORARI BECAUSE THE PUBLISHED OPINION OF THE
UNITED STATES COURT OF APPEALS FOR THE EIGHTH
CIRCUIT CONFLICTS WITH THIS COURT’S DECISIONS IN
FLOWERS v. MISSISSIPPI, FOSTER v. CHATMAN AND
MILLER-EL v. DRETKE IN THAT THE EIGHTH CIRCUIT
AFFIRMED THE DISTRICT COURT’S FINDING THAT THE
PROSECUTION’S PROFERRED FACTUALLY INCORRECT
STATEMENTS FOR STRIKING A BLACK JUROR DID NOT
SHOW RACIAL DISCRIMINATION WITHOUT CONSIDERING
THE OTHER EVIDENCE OF DISCRIMINATION BY THE
PROSECUTOR DURING VOIR DIRE.
“The Constitution forbids striking a single prospective juror for a
discriminatory purpose.”

Snyder v. Louisiana, 552 U.S. 472, 478 (2008).

Under

Batson v. Kentucky, 476 U.S. 79 (1986), the United States Supreme Court has
provided a three-step process to determine whether a peremptory challenge is
discriminatory. First, a defendant must make a prima facia showing that the
strike was based upon race. If the defendant meets his burden, then the
prosecution must provide a race neutral reason for striking the prospective juror.
The trial court first must look to the reasons provided by the prosecution to
determine if the reasoning is grounded in fact to assess whether the reasons stated
11

by the prosecution are pretextual and thus show purposeful discrimination.

Foster

v. Chatman, 578 U.S. ---, 136 S.Ct. 1737, 195 L.Ed.2d 1, 12-13, 17 (2016); Snyder
v. Louisiana, 552 U.S. at 476-477 (emphasis added).
Factually incorrect statements by the prosecution to justify the exercise of
the peremptory challenge show that the prosecution intended to keep black jurors
off the jury. Foster v. Chatman, 195 L.Ed.2d at 13, 21; Miller-El v. Dretke, 545
U.S. 231, 240, 245 (2005).

The back and forth of a Batson hearing can be

hurried, and prosecutors can make mistakes when providing explanations. But
when considered with other evidence of discrimination by a prosecutor during voir
dire, a series of factual misrepresentations for striking the prospective black jurors
no longer can be overlooked or explained away.

Flowers v. Mississippi, 508 U.S.

---, 139 S.Ct. 2228, 2250 (2019). This inquiry must include a determination
whether the prosecution struck all of the prospective black jurors or the majority of
them, whether the prosecution kept white jurors who had the same issues as the
reasons stated for striking the black jurors and allowed them to serve on the jury,
and whether the prosecution failed to engage in any meaningful voir dire to address
the issues he raised to strike the black jurors.
2243; Miller-El v. Dretke, 545 U.S. at 246.
///
12

Flowers v. Mississippi, 139 S.Ct.

The striking of a black juror cannot be considered in isolation, but rather
must be examined in the context of all facts and circumstances during voir dire.
When the prosecutor provided inaccurate statements to justify striking a
prospective black juror as the prosecutor did in this case, the Court of Appeal must
consider the context of other facts and circumstances which show racial
discrimination on the part of the prosecution during jury selection to determine
whether a Batson violation has occurred and whether the trial court decision to
deny a Batson violation was clearly erroneous.
The Eighth Circuit Court of Appeal failed to do so in this case in direct
conflict with this Court’s holdings and mandates in Flowers v. Mississippi, Foster
v. Chatman and Miller-El v. Dretke. The panel acknowledged the prosecutor
proffered two factually incorrect statements to justify striking Juror No. 7 from the
jury panel. First, the prosecutor misstated Juror No. 7’s level of education by
telling the District Court she only had achieved a GED level of education when in
fact Juror No. 7 finished college.

The prosecutor also mistakenly indicated Juror

No. 7 had not fully completed her jury questionnaire when in fact she had done so.
(Appendix at 7-9).
Despite acknowledging the factually inaccurate statements by the
prosecutor, the Eighth Circuit did not examine or consider the other evidence of
13

discrimination by the prosecutor during voir dire. If the Eighth Circuit had done
so, the panel would have found the other evidence of racial discrimination during
jury selection verified that the factual misstatements proffered to justify the
striking of Juror No. 7 and the removal of all black and minority jurors from the
jury panel were based upon race and a Batson violation in this case.
First, the prosecutor used three peremptory challenges to strike two black
jurors and one Latino juror from the panel. At that point, all of the minorities
were removed from the jury panel.
After defense counsel presented a prima facia case of racial discrimination
by the prosecution during jury selection, the District Court required the prosecution
to present race neutral reasons for striking Juror No. 7. The prosecutor initially
responded: “actually I flagged [her] before I even knew who she was.” Without
any knowledge of this juror’s background, the prosecutor at that time only had
Juror No. 7’s appearance as an African American female to base his decision to
strike her. This response provides further proof that the prosecutor’s decision to
strike this juror was based solely upon her race thereby violating Petitioner’s Equal
Protection rights guaranteed under the Fifth Amendment.
The prosecutor proffered six additional reasons to support a finding that his
decision to strike Juror No. 7 were based upon race neutral criterion. Instead, his
14

responses were further evidence that he struck Juror No. 7 based upon her race
because the prosecutor allowed white jurors to serve on the jury who had the same
issues that were stated for striking Juror No. 7.
Specifically, the prosecution proffered that he struck Juror No. 7 because she
was young. Yet, four other white jurors were also young and in the same age
group as Juror No. 7 but were allowed to remain on the jury.
The prosecutor then proffered that Juror No. 7 was struck because she was
single and a parent. Two white jurors who served on the jury were both single
parents.
Circuit Judge Kelly concurred in the Panel’s decision but wrote separately
because “the government’s use of a peremptory challenge to strike Juror No. 7
presents a close call.” In response to the prosecutor’s claim that jury service
would be a burden for a single parent, Judge Kelly questioned “whether it is
reasonable to infer a person who is working full-time and raising a child would
suffer an unusual burden. Those circumstances do not appear to be out of the
ordinary.” The prosecutor did not clarify what he meant, but if it was childcare,
the District Court already addressed that issue with no concern raised by Juror No.
7. In addition, Judge Kelly noted that the prosecutor also assumed that Juror No.
7 was single, which was not set forth in the record below. (Appendix at 10).
15

The prosecutor also struck Juror No. 7 because she rented and lived there for
only one month. Yet, a white juror who served on this jury also rented his
residence and lived there for only six months prior to his jury service.

Two other

white jurors who served on the panel also rented and did not own the places they
lived in.
Judge Kelly also criticized the prosecutor for this stated reason which
implied a concern that Juror No. 7 lacked community attachment. This reason is
completely undermined by the fact every potential juror had to live in Nebraska for
at least one year to be eligible to serve on the jury. (Appendix at 10-11).
The prosecutor then proffered that he struck Juror No. 7 because she had an
18 month child. Yet, one white juror had a child the exact same age and was
allowed to serve on the panel.

Two other white jurors who served on the jury had

children younger than Juror No. 7.
The prosecutor added that he struck Juror No. 7 because she did not
volunteer any answers to the questions posed to whole panel by the Court and
counsel during voir dire. Yet, nine of the white jurors or three fourths of the jury
panel did not volunteer any answers to questions posed to whole panel.
Finally, the prosecutor stated that Juror No. 7 was hiding resentment about
law enforcement and the criminal justice system’s handling of her father’s murder
16

since she did not respond when the panel was asked whether any member of their
family had ever been involved in a criminal court proceeding.

There is no factual

support in the record below for this statement.
Again, the prosecutor assumed her father was murdered, that law
enforcement was involved in the investigation of his death, that law enforcement’s
performance during the investigation was unsatisfactory, that the criminal charges
were filed, and the criminal justice system did not resolve this matter favorably to
her family. There is absolutely no factual support in the record below for any of
these assumptions. Juror No. 7 was two years old when her father died so it is
highly unlikely she had a recollection of the circumstances surrounding his death, a
fact pointed out by Judge Kelly in her concurrence. (Appendix at 12). In
addition, he could have died in an accident or by means that were not criminally
motivated. The prosecution made no effort to clarify the circumstances of his
death, which also shows his racial discriminatory purpose.
More importantly, Juror No. 17, one of the white jurors, was a victim of
sexual assault, and he was allowed to serve on the jury.

The perpetrator of the

sexual assault in his case was never charged because the statute of limitations had
expired. Juror No. 17 did not respond to the District Court’s inquiry as to
whether anyone had been involved in any court in a criminal matter, and unlike
17

Juror No. 7, was allowed to serve on the jury, as noted by Judge Kelly.
(Appendix at 12-13).
The prosecutor did not have to make any assumptions or fill in any missing
facts to draw the reasonable conclusion that this white juror was hiding resentment
toward law enforcement or the criminal justice system. As the victim of a serious
crime who could not obtain justice from the criminal justice system, he more than
Juror No. 7 had good reason to be resentful toward law enforcement and the
criminal justice system. His failure to respond to the District Court’s inquiry
points to the very real possibility that he was hiding resentment toward law
enforcement and the criminal justice system. Yet, the prosecutor did not strike
him from the jury panel.
All of the reasons proffered by the prosecution to strike Juror No. 7 either
were factually incorrect or also applied to white jurors who were allowed to serve
on the jury. Thus, the “race neutral” reasons proffered by the prosecution actually
further highlighted his racial discrimination during jury selection.
Finally, the prosecutor failed to engage in any meaningful voir dire to
address the issues he raised to strike Juror No. 7. In fact, the prosecutor did not
ask any questions of Juror No. 7, despite raising nine issues for striking Juror No. 7
with the District Court.
18

The Eighth Circuit’s published opinion stands in direct contradiction to this
Court’s established precedents in Flowers v. Mississippi, Miller-El v. Dretke, and
Foster v. Chatman and now can be used as binding precedent to allow a trial court
to ignore the full record of the voir dire and other evidence of racial discrimination
by a prosecutor when a showing has been made that the same prosecutor struck all
or the majority of black jurors from the panel and provided factually incorrect
statements to justify his decision. This Court should grant the Petition for Writ of
Certiorari to resolve this conflict and prevent future courts from ignoring the rule
of law established by this Court when undertaking a Batson analysis.
Alternatively, this Court should grant the Petition and remand the case to the
Eighth Circuit ordering the court to consider the context of all facts and
circumstances of racial discrimination by the prosecutor during voir dire.
CONCLUSION
For the above reasons, this Court should grant the Petition for Writ of
Certiorari to resolved the conflict between the Eighth Circuit’s decision in this case
and the established precedents of this Court in Flowers v. Mississippi, Foster v.
Chatman and Miller-El v. Dretke. Alternatively, this Court should grant the
Petition for Writ of Certiorari and remand this case back to the Eighth Circuit with
directions for the lower court to consider the mandates set forth in Flowers v.
19

Mississippi, Foster v. Chatman and Miller-El v. Dretke which require the Court of
Appeal to consider the full context of the prosecutor’s actions during voir dire
when determining whether a Batson violation occurred in this case.
Dated: November 2, 2020

Respectfully submitted,

s/Michael S. Evans ____________
Attorney for Petitioner
SHERMAN JOHNSON, JR.

20

CERTIFICATE OF COMPLIANCE
I, Michael S. Evans, state that I am the attorney who was appointed per the
Criminal Justice Act by the United States Court of Appeals for the Eighth Circuit
to represent Sherman Johnson, Jr. on appeal. I certify that the foregoing petition
uses a proportional space, 14 point New Times Roman font.

Based upon the

word count of my computer program, Microsoft Word, the Opening Brief in this
matter contains a total of 4881 words, and thus does not exceed the 9000 word
limit per Rules of the Supreme Court of the United States, Rule 33.1, subdivision
(g) (Effective July 1, 2019).
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 2nd Day of November, 2020 at Los Angeles, California.

s/Michael S. Evans
Attorney for Petitioner
SHERMAN JOHNSON, JR.

21

CERTIFICATE OF FILING AND SERVICE
I hereby certify that I electronically filed the foregoing Petition for Writ of
Certiorari along with the Appendix and Motion for Leave to Proceed In Forma
Pauperis with the Clerk of the Court for the United States Supreme Court on
November 2, 2020. I certify that all participants in the case are registered users of
this Court’s electronic filing system and that service will be accomplished using
this system. I also certify that on November 2, 2020 I placed a copy of the
Petition for Writ of Certiorari in the United States Mail, postage prepaid addressed
to the Solicitor General of the United States, Room 5616, Department of Justice,
950 Pennsylvania Avenue, N.W., Washington, DC 20530-0001.

s/Michael S. Evans

22

